               The New Risk-Based Collection Initiative Has
                  the Potential to Increase Revenue and
                    Improve Future Collection Design
                              Enhancements

                                 September 2004

                       Reference Number: 2004-30-165




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                   September 1, 2004


      MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                     DIVISION


      FROM:                         Gordon C. Milbourn III
                                    Acting Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - The New Risk-Based Collection Initiative
                                    Has the Potential to Increase Revenue and Improve Future
                                    Collection Design Enhancements (Audit # 200330042)


      This report presents the results of our review of the Internal Revenue Service’s (IRS)
      Risk-Based Collection (RBC) initiative. The overall objectives of the review were to
      determine whether the RBC initiative in the Small Business/Self-Employed (SB/SE)
      Division was developed using sound methodology and whether its effectiveness can be
      adequately measured.
      Between Fiscal Years 1996 and 2001, the IRS Collection function program results
      declined sharply, due in part to a large decrease in Collection Field function (CFf)1
      staffing. Although some Collection function results have improved since then, the IRS
      still faces a tax gap estimated at over $300 billion and an increasing belief among
      taxpayers that cheating on their taxes is acceptable. To help reduce this tax gap, the
      IRS Commissioner is emphasizing stronger enforcement. Part of this emphasis
      involves an IRS collection project, called Filing and Payment Compliance (F&PC), which
      includes risk-based scoring to predict collectibility. However, it is a long-term project
      dependent on the IRS’ historically problematic modernization program, leaving the IRS
      operating divisions to develop their own short-term improvements.
      Limited to making minimal system changes and implementing them within 3 years, in
      May 2001, the SB/SE Division Collection Strategy (CS) team began devising a
      short-term solution as part of the Collection function reengineering efforts. The CS
      team’s RBC initiative used predictive models to characterize accounts according to the

      1
       The CFf consists of revenue officers who handle personal contacts with taxpayers to collect delinquent accounts or
      secure unfiled tax returns.
                                                        2

probability of productive or unproductive closure, for routing to the most effective
treatment area. The CS team’s most recent calculations estimate additional revenue
from the initiative, which began operating in January 2003, at over $1.9 billion annually
when fully implemented.
In summary, the SB/SE Division should be recognized for taking significant steps to
develop risk-based criteria for improving casework selection in the Automated Collection
System (ACS)2 and the CFf. The CS team implemented the initiative within the targeted
time periods and met programming constraints. Their comprehensive methodology
considered risks and used sophisticated software modeling employing hundreds of
variables from appropriate available data sources.
The SB/SE Division Research function is testing the predictive accuracy of the models,
and statistical data to date show mixed results. The CFf’s average monthly dollars
collected from January through May 2004 exceeded preinitiative results by nearly
$120 million, and the ACS’ monthly collections increased by over $20 million. On the
other hand, decreases in the ACS’ productive closure rates and an increase in its
unproductive closure rate contrast with the RBC initiative’s predicted results. However,
it may be premature to draw any conclusions from the limited initial data. It is also
difficult to determine whether the statistics are indications of the success of the RBC
initiative, or whether there are factors from other initiatives contributing to the changes.
SB/SE Division management did not have an adequate method to measure the results
of the models on revenue, productive and unproductive closings, and compliance, or the
effects of potential incorrect predictions. Ideally, the measurement should differentiate
the effects on revenue from those of several other initiatives that have taken place.
Additionally, because the SB/SE Division had to implement the RBC initiative within
tight time periods, the CS team had to make decisions and accept limitations in the
design of the models that inherently make them less ideal than a longer development
period using more complete data, such as that envisioned in the F&PC project, would
have allowed. For example, the modeling does not include information on
nondelinquent taxpayers, complete information on a taxpayer’s entire account history,
or third-party data. In some cases, it does not account for all types of returns for a
business taxpayer and related compliance work that Collection function employees
must consider. The SB/SE Division has the opportunity to apply its experiences from
model development to future risk-based efforts.
We recommended the Director, Payment Compliance, develop an effective
measurement system which quantifies and reports on the results of the RBC initiative.
The Director should share the CS team’s experiences in developing a risk-based
collection system with the developers of the F&PC project, or use those experiences to
improve the SB/SE Division’s system if the F&PC project becomes significantly delayed.



2
  The ACS is a telephone contact system through which telephone assistors collect unpaid taxes and secure tax
returns from delinquent taxpayers who have not complied with previous notices.
                                             3

Management’s Response: The Commissioner, SB/SE Division, disagreed with one of
our two recommendations. The Commissioner, SB/SE Division, disagreed with the
recommendation to develop a measurement system to quantify and report on the
results of the initiative, saying it would require retroactively developing a methodology to
quantify and evaluate the change. Instead, the SB/SE Division will evaluate progress
by looking at overall results of its incremental reengineering improvements at various
points in time and will work on ways to measure and report on benefits of future
recommendations. SB/SE Division management agreed to modify existing procedures
to include a representative from the F&PC project in the periodic status discussions on
SB/SE Division research projects and annual progress reviews. Management’s
complete response to the draft report is included as Appendix IV.
Office of Audit Comment: Although we understand the difficulties of isolating and
attributing improvements to various reengineering efforts, the RBC models projected
very specific results, and we believe that a measurement process is needed to
determine whether the results are being achieved. While we still believe our
recommendation is worthwhile, we do not intend to elevate our disagreement
concerning it to the Department of the Treasury for resolution.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or Philip
Shropshire, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (215) 516-2341.
                The New Risk-Based Collection Initiative Has the Potential to
           Increase Revenue and Improve Future Collection Design Enhancements




                                                  Table of Contents


Background ............................................................................................... Page 1
A Comprehensive Methodology Was Used to Implement a
Risk-Based Modeling Approach to Select Case Work .............................. Page 3
Testing Is Designed to Gauge the Models’ Accuracy but Will Not
Fully Quantify Their Success..................................................................... Page 5
         Recommendation 1: .......................................................................Page 8

Opportunities Exist to Apply Lessons Learned From Model Development
to Future Risk-Based Efforts ..................................................................... Page 8
         Recommendation 2: .......................................................................Page 12

Appendix I – Detailed Objectives, Scope, and Methodology ..................... Page 13
Appendix II – Major Contributors to This Report ....................................... Page 15
Appendix III – Report Distribution List ....................................................... Page 16
Appendix IV – Management’s Response to the Draft Report .................... Page 17
             The New Risk-Based Collection Initiative Has the Potential to
        Increase Revenue and Improve Future Collection Design Enhancements

                               The mission of the Internal Revenue Service (IRS) is to
Background
                               provide America’s taxpayers top-quality service by helping
                               them understand and meet their tax responsibilities and by
                               applying the tax law with integrity and fairness to all. In its
                               1999 publication, Modernizing America’s Tax Agency,1 the
                               IRS recognized that, regardless of how successful it is in
                               preventing taxpayer errors, intervention would always be
                               necessary when taxpayers did not file their returns or pay
                               their tax liabilities. The publication further noted the need
                               to promptly identify customers who may present a risk of
                               nonpayment and to intervene in the most effective way to
                               work out a payment program that addresses a particular
                               customer’s payment problem. Risk-based compliance
                               techniques are dependent upon centralized management of
                               compliance resources; accurate, up-to-date data; and modern
                               technology.
                               The Government Accountability Office (GAO)2 reported3
                               a serious decline in the IRS’ Collection function program
                               between Fiscal Years (FY) 1996 and 2001. This was due
                               in part to a large decrease in Collection Field function
                               (CFf)4 staffing. The GAO estimated that, by the end of
                               FY 2001, the IRS had deferred collecting taxes from
                               about 1.3 million taxpayers who collectively owed about
                               $16.1 billion. The Taxpayer Delinquent Account (TDA)5
                               inventory increased 22 percent from FYs 1997 to 2000,
                               while use of enforcement tools such as liens6 and




                               1
                                 IRS Publication 3349 (2-1999).
                               2
                                 Formerly the General Accounting Office.
                               3
                                 Tax Administration: Impact of Compliance and Collection Program
                               Declines on Taxpayers (GAO-02-674, dated May 2002).
                               4
                                 The CFf consists of revenue officers who handle personal contacts
                               with taxpayers to collect delinquent accounts or secure unfiled tax
                               returns.
                               5
                                 A TDA is a balance due account of a taxpayer.
                               6
                                 A lien is an encumbrance on property or rights to property as security
                               for a debt or obligation. The Federal Tax Lien provides the statutory
                               basis for all the enforcement actions the IRS takes to secure payment for
                               outstanding taxes. A Notice of Federal Tax Lien notifies creditors that
                               the Federal Government has a claim against a taxpayer’s property and
                               rights to property.
                                                                                                Page 1
     The New Risk-Based Collection Initiative Has the Potential to
Increase Revenue and Improve Future Collection Design Enhancements

                       levies7 dropped significantly. More recent data show that
                       the IRS has improved some of its collection results. For
                       example, there was a substantial increase in the use of liens
                       and levies, TDA closings increased 26 percent, and dollars
                       collected in FY 2003 increased 15 percent over FY 2002.
                       Nevertheless, the IRS Commissioner has emphasized
                       stronger enforcement, citing an increase from 11 to
                       17 percent (55 percent) in the number of taxpayers who
                       believe tax cheating is acceptable and a tax gap estimated by
                       the IRS at over $300 billion.
                       To address many collection enforcement challenges, the IRS
                       launched a series of programs to modernize its technologies
                       and processes, one of which is the Filing and Payment
                       Compliance (F&PC) project. Projected capabilities of
                       the F&PC project include increased and timely use of
                       third-party data in case detection and case resolution;
                       decision analytics for risk-based scoring, customer
                       segmentation, and treatment assignments; and improved
                       treatment streams (a series of tailored consecutive collection
                       actions). Decision analytics is a software application that
                       builds scoring models to identify segments or groupings of
                       receivables and predicts collectibility; it designs treatment
                       streams aimed at efficiently collecting the receivables the
                       models identify.
                       Although the F&PC project is estimated to result in
                       $27 billion in additional tax revenues through FY 2016, it is
                       a long-term solution dependent on the IRS’ historically
                       problematic modernization efforts. Funding has not been
                       consistently provided, and the F&PC project is not likely to
                       enhance the collection process for some time, leaving the
                       IRS operating divisions to develop their own short-term
                       improvements. The Risk-Based Collection (RBC) initiative
                       was the Small Business/Self-Employed (SB/SE) Division’s
                       solution.



                       7
                        A levy is a method the IRS uses to collect balance due accounts that
                       are not voluntarily paid. To levy means to take property by legal
                       authority to satisfy a tax debt. The IRS can attach property held by third
                       parties or the taxpayer. Generally, a Notice of Levy is used to attach
                       funds a third party owes the taxpayer (such as wages or funds on deposit
                       at a bank). Levies can be made on real or personal property.
                                                                                         Page 2
             The New Risk-Based Collection Initiative Has the Potential to
        Increase Revenue and Improve Future Collection Design Enhancements

                               This review was performed at the SB/SE Division’s
                               National Headquarters in the Office of Payment Compliance
                               and in the Research function in the Office of Strategy,
                               Research, and Performance Management, during the period
                               September 2003 through May 2004. We discussed the RBC
                               initiative’s development with officials in these functions and
                               reviewed the documentation pertaining to the development
                               and testing of the RBC initiative. Analyzing the
                               mechanisms of the developed models themselves was
                               beyond the scope of this review. The audit was conducted
                               in accordance with Government Auditing Standards.
                               Detailed information on our audit objectives, scope, and
                               methodology is presented in Appendix I. Major
                               contributors to the report are listed in Appendix II.
                               As part of its Collection function reengineering efforts, in
A Comprehensive Methodology
                               May 2001 the SB/SE Division chartered a Collection
Was Used to Implement a
                               Strategy (CS) team with the goal of achieving short-term
Risk-Based Modeling Approach
                               collection improvements. Guiding principles for its work
to Select Case Work
                               included implementing projects within 3 years and selecting
                               solutions that would require only minimal system changes.
                               In developing the RBC initiative, the CS team used
                               predictive models to characterize aspects of balance due
                               modules8 that would indicate a higher probability of a
                               productive closure. Financial institutions, underwriters, and
                               credit card companies use predictive models to assess credit
                               risk and collectibility of accounts.
                               The models screen new modules to determine whether
                               incoming cases are likely to be unproductive (Currently Not
                               Collectible (CNC))9 or productive (Full Pay (FP)).10 The
                               screening device, called a predictive filter, bases predictions
                               on a taxpayer’s prior payment history in collection and tax
                               return information. The CS team chose the Collection




                               8
                                 A tax module is part of a taxpayer’s account; it reflects tax data for one
                               type of tax and one tax period.
                               9
                                 A CNC account is a taxpayer account that has been determined to be
                               presently uncollectible. However, the account’s status is subject to
                               change.
                               10
                                  The team considered a module “Full Pay” if the sum of payments on
                               the module was greater than 95 percent of the initial module balance.
                                                                                                  Page 3
     The New Risk-Based Collection Initiative Has the Potential to
Increase Revenue and Improve Future Collection Design Enhancements

                       Inventory Delivery System (IDS)11 as the implementation
                       point for these models. The IDS has the capacity to
                       accommodate short-term changes and is the key to routing
                       and prioritizing Collection function work. After filtering,
                       the modules can be routed to the most effective treatment
                       area. The IRS expects that eliminating unproductive cases
                       from the Automated Collection System (ACS)12 and the CFf
                       will ensure less time will be spent on unproductive work.
                       Consequently, a greater volume of productive cases and a
                       greater total volume of cases can be worked, resulting in
                       more dollars collected.
                       The filters were brought on line in January 2003, although
                       related programming for the ACS and CFf was not
                       completed until April and August 2003, respectively. The
                       SB/SE Division Research function established projects to
                       test the predictive accuracy of the models and profile or to
                       describe the characteristics of tax modules that have been
                       identified by the models. Interim reports issued in
                       February 2004 followed model case results from January
                       through September 2003.
                       Although it may be too early to tell whether the models will
                       deliver the anticipated increased productive closings and
                       revenue, as discussed in the next section of this report, the
                       SB/SE Division should be recognized for its efforts to
                       implement a risk-based methodology for selecting case
                       work. The CS team implemented the initiative within the
                       targeted time periods and met programming constraints.
                       Their comprehensive methodology considered risks and
                       used sophisticated software modeling employing hundreds
                       of variables from appropriate available data sources. While
                       the IRS awaits the delayed F&PC project, the SB/SE
                       Division has taken the first significant steps to apply
                       decision analytics to develop risk-based criteria for
                       improving resource allocation in the ACS and CFf.



                       11
                          The IDS is an automated decision-support system enhancing existing
                       IRS systems by directing tax delinquency cases to the point in the
                       collection process at which they can be processed optimally.
                       12
                          The ACS is a telephone contact system through which telephone
                       assistors collect unpaid taxes and secure tax returns from delinquent
                       taxpayers who have not complied with previous notices.
                                                                                     Page 4
                The New Risk-Based Collection Initiative Has the Potential to
           Increase Revenue and Improve Future Collection Design Enhancements

                                   As the CS team worked on the development of the models,
Testing Is Designed to Gauge the
                                   it was concerned that there was no way to test the results of
Models’ Accuracy but Will Not
                                   the RBC initiative. Although research testing is underway
Fully Quantify Their Success
                                   and discussed below, it is not designed to fully quantify the
                                   initiative’s success.
                                   A prior Treasury Inspector General for Tax
                                   Administration report13 on Collection function process
                                   improvements identified a concern about measuring results
                                   of the improvements. The report noted that it would be
                                   difficult to measure the impact of the process improvements
                                   because other initiatives that should affect measures were
                                   being implemented almost simultaneously. These
                                   additional initiatives included revising the priority system
                                   for assigning cases, hiring additional staff, implementing a
                                   management consultation initiative, and developing the
                                   risk-based modeling discussed in this report. Our prior
                                   audit report concluded that it would be difficult to correlate
                                   any productivity gains to specific initiatives and that, while
                                   overall results might improve, one or more of the initiatives’
                                   recommendations could actually have a negative impact
                                   without this being clearly identified.
                                   In discussing this concern with us, SB/SE Division
                                   management explained that the Research function’s current
                                   research on the models addresses measurement. Although
                                   they acknowledged it is an ongoing challenge, they believe
                                   they are better measuring the RBC initiative. However,
                                   neither our discussion nor a review of an interim report on
                                   the research test project clearly revealed how the impact of
                                   the initiative would be measured.
                                   The objectives of that research project were to measure the
                                   predictive accuracy of models and to provide some
                                   descriptive statistics on variables from cases whose
                                   dispositions (closures) were inconsistent with the models’
                                   predictions. The research plan’s methodology, sample
                                   design, and selection appear to be sound and designed to
                                   deliver an appropriate measurement of the models’


                                   13
                                     Management Advisory Report: The Small Business/Self-Employed
                                   Division’s Collection Process Improvement Effort Will Not Adversely
                                   Affect Internal Controls, but Potential Risks Still Exist (Reference
                                   Number 2002-30-091, dated May 2002).
                                                                                                  Page 5
     The New Risk-Based Collection Initiative Has the Potential to
Increase Revenue and Improve Future Collection Design Enhancements

                       predictive accuracy. While that measurement is a valuable
                       and necessary research objective, a measurement system
                       should determine whether the desired business outcomes are
                       being realized or, in the case of the RBC initiative, quantify
                       the models’ effects on revenue and differentiate their effects
                       from those of any other initiatives. The test plan and
                       interim results do not address these issues.
                       Statistical information may provide some indication of the
                       initiative’s outcomes. For example, the rate of FP or
                       Installment Agreement14 (IA) module closings may indicate
                       how well the filters identify productive work. Conversely,
                       the rate of CNC module closings may indicate how well the
                       filters identify unproductive work. The number of dollars
                       collected may also indicate effectiveness.
                       Figure 1 presents mixed results, with dollar collections
                       showing significant increases but some productive and
                       unproductive closing rates showing no improvement. It
                       compares key indicator averages from January through
                       May 2004, the most recent data available, to averages for
                       the same period for 2002, the year before the initiative was
                       implemented.15




                       14
                          The IRS expects taxpayers to pay the full amount of taxes owed when
                       they file their tax returns. However, the IRS allows taxpayers to pay
                       their taxes in installments, with interest and penalty, when full payment
                       is not possible.
                       15
                          The FP, IA, and CNC rates are based on all dispositions, including
                       shelved cases, which are delinquent unpaid accounts that have been
                       taken out of Collection function inventory because they are lower
                       priority.
                                                                                        Page 6
     The New Risk-Based Collection Initiative Has the Potential to
Increase Revenue and Improve Future Collection Design Enhancements

                                     Figure 1: Key SB/SE Division Measures
                                                                                CHANGE
                              MEASURES                2002          2004
                                                                                2002-2004

                       CFf Average FP Rate               33.92%        36.47%         2.55%

                       ACS Average FP Rate               38.68%        32.41%         -6.27%

                       CFf Average IA Rate                7.25%        10.54%         3.29%

                       ACS Average IA Rate               27.47%        27.40%         -0.07%

                       CFf Average CNC Rate              40.80%        36.74%         -4.06%

                       ACS Average CNC Rate              18.72%        28.46%         9.74%

                       CFf Average Dollars          $225,476,997 $345,386,065 $119,909,068
                       Collected per Month

                       ACS Average Dollars          $151,259,732 $171,586,879 $20,327,147
                       Collected per Month

                       Source: IRS Collection 5000-1, 5000-5, and 5000-139 Reports.

                       In January 2002, the CS team estimated implementing the
                       RBC initiative would generate an 11 percent increase in
                       productive dispositions, an 11 percent decrease in
                       unproductive dispositions, and about $1 billion annually in
                       additional revenue. The statistics above indicate an increase
                       in average monthly dollars collected in the CFf of nearly
                       $120 million and in the ACS of over $20 million. However,
                       decreases in the ACS FP and IA rates, and increases in the
                       ACS CNC rates, contrast with the RBC initiative’s
                       predicted results.
                       Because many modules have not had sufficient time to
                       close, it may be premature to draw any conclusions from
                       these data. As we stated in our May 2002 report, it is also
                       difficult to determine whether the statistics are indications
                       of the success of the RBC initiative or whether there are
                       factors from other initiatives contributing to the changes.
                       Throughout the development process, the CS team arrived at
                       various estimates of improved results from the initiative.
                       Calculations of additional yearly revenue, when the
                       initiative is fully implemented, ranged from an original
                       assumption of about $1 billion to over $1.9 billion in the
                       most recent estimate. SB/SE Division management advised
                       us the Research function would measure the results of the
                       models on revenue, productive and unproductive closings,
                       and compliance, and the effects of potential incorrect
                                                                                      Page 7
                The New Risk-Based Collection Initiative Has the Potential to
           Increase Revenue and Improve Future Collection Design Enhancements

                                  predictions. The research project documentation did not
                                  specify how these results would be tracked or in what report
                                  or series of reports they would be documented. Therefore,
                                  there appears to be no process or method in place that can
                                  effectively measure whether the modeling will achieve the
                                  improvements envisioned.

                                  Recommendation

                                  1. The Director, Payment Compliance, should implement a
                                     process to report on attainment of expected benefits of
                                     the RBC initiative. This should include all proposed
                                     benefits whether specifically quantified or not.
                                     Quantified benefits included increased productive
                                     closures, decreased unproductive closures, and increased
                                     revenue.
                                  Management’s Response: The Commissioner, SB/SE
                                  Division, disagreed with this recommendation, saying it
                                  would require retroactively developing a methodology to
                                  quantify and evaluate the change. Instead, the Division will
                                  evaluate progress by looking at overall results of its
                                  incremental reengineering improvements at various points
                                  in time and will work on ways to measure and report on
                                  benefits of future recommendations.
                                  Office of Audit Comment: Although we understand the
                                  difficulties of isolating and attributing improvements to
                                  various reengineering efforts, the RBC models projected
                                  very specific results, and we believe that a measurement
                                  process is needed to determine whether the results are being
                                  achieved.
                                  SB/SE Division executives tasked the CS team with
Opportunities Exist to Apply
                                  identifying options for rapid implementation of the
Lessons Learned From Model
                                  initiative. The CS team’s short-term time periods prevented
Development to Future
                                  developing a solution requiring substantial reprogramming
Risk-Based Efforts
                                  of the IRS’ main computer systems, the Master File (MF)16




                                  16
                                    The MF is the IRS database that stores various types of taxpayer
                                  account information. This database includes individual, business, and
                                  employee plans and exempt organizations data.
                                                                                                 Page 8
     The New Risk-Based Collection Initiative Has the Potential to
Increase Revenue and Improve Future Collection Design Enhancements

                       and the Integrated Data Retrieval System (IDRS).17 Because
                       of the limited time periods, the CS team had to make
                       decisions and accept limitations in the design of the models
                       that inherently make them less ideal than a longer
                       development period using more complete data, such as that
                       envisioned in the F&PC project, would have allowed. The
                       CS team fully considered the limitations, which are
                       presented in its documentation and discussed below, and its
                       experience should be helpful in refining the SB/SE
                       Division’s risk-based systems, if needed, or in assisting with
                       the IRS’ future overall risk-based collection efforts.
                       Placement of filters after the notice stream limits
                       treatment opportunities
                       A risk analysis performed around the time of the initiative’s
                       inception detailed several important points in identifying
                       risk-based characteristics. These include determining the
                       amount of risk at the time of assessment, routing accounts
                       with different risk to different types of treatment, and
                       identifying taxpayers’ payment and nonpayment
                       characteristics from assessment to resolution.
                       Since the MF and IDRS could not be reprogrammed,
                       programming filters had to be implemented at the IDS level,
                       which routes cases that have completed the notice stage.
                       The filters identify the overall likelihood of payment, but
                       their placement provides no mechanism to treat a taxpayer’s
                       delinquency from the assessment’s inception by using
                       different notice treatments for low- and high-risk cases.
                       In addition to the programming constraints, SB/SE Division
                       management believed the limitation was acceptable because
                       the notice process effectively resolves a high percentage of
                       cases and collects substantial money. While the notice
                       process does result in large collection of dollars, filtering
                       out those unproductive cases could allow IRS resources to
                       be used more effectively to address the large amount of
                       dollars deferred each year. Tailoring complete treatment
                       streams, including different types and numbers of notices,



                       17
                         The IDRS is the IRS computer system capable of retrieving or
                       updating stored information; it works in conjunction with a taxpayer’s
                       account records.
                                                                                       Page 9
     The New Risk-Based Collection Initiative Has the Potential to
Increase Revenue and Improve Future Collection Design Enhancements

                       will not be fully addressed until the F&PC project is in
                       place.
                       Models are based on less than complete data
                       The selection of data sources for modeling was one
                       important element the CS team had to consider. During
                       risk-based research predating the SB/SE Division’s RBC
                       initiative, researchers wanted to use a database extracted
                       from MF data containing a taxpayer’s entire history, as well
                       as data for nondelinquent taxpayers. Comparing the
                       attributes of delinquent and nondelinquent taxpayers was
                       considered necessary for the development of any prediction
                       model and useful for identifying possible misleading model
                       data. However, modeling was based on only those cases in
                       various Collection functions. The models do not have
                       information on the entire population of taxpayers who have
                       had no collection activity or complete information on the
                       taxpayers’ entire MF account histories.
                       All of a taxpayer’s accounts and third-party information
                       were not considered in the models
                       Modeling is also performed by module, which, while
                       eliminating the necessity of dealing with multiple
                       disposition types for a particular entity, means giving up
                       some critical information about the entity. For example, in
                       the analysis of a business taxpayer’s employment tax
                       returns, there is no information about the income of the
                       business or the business owner. Small businesses file
                       several different tax forms containing substantially different
                       information.
                       There are often multiple modules for a single taxpayer
                       arising from balances due on different forms that may have
                       been resolved in a variety of ways. A business taxpayer
                       may have fully paid some modules while other modules
                       may have been abated or reported as uncollectible, making
                       modeling taxpayer payment characteristics very complex.
                       Modeling was further limited because third-party data, such
                       as credit history or state income tax information, were not
                       available for analysis. These types of data are available
                       from various electronic sources and could be integrated into
                       the modeling process. This could significantly enhance the

                                                                             Page 10
     The New Risk-Based Collection Initiative Has the Potential to
Increase Revenue and Improve Future Collection Design Enhancements

                       models’ ability to predict productive versus unproductive
                       cases.
                       The models do not account for some collection policies
                       If a balance due module is issued on a self-employed
                       individual’s return, Collection function employees must
                       determine whether the related business entity is in filing and
                       payment compliance and, if not, must secure unfiled returns
                       and/or balance due amounts and make a collection
                       determination on both entities simultaneously. The models
                       do not account for such cross-compliance and may filter the
                       account as unproductive, allowing no chance for the
                       investigation of the related entity.
                       Additionally, Collection function employees must consider
                       assessing a Trust Fund Recovery Penalty (TFRP) against
                       responsible persons involved with corporate failure to pay
                       trust fund monies.18 Similarly, the models do not fully
                       address this issue and may filter the account as unproductive
                       with no TFRP investigation. SB/SE Division management
                       explained that these investigation results have not
                       traditionally been good and they are willing to forego such
                       cases for more productive cases the model predicts.
                       Models have inaccuracy rates when predicting case
                       resolutions
                       An inherent risk in modeling is the possibility that some
                       predictions will be inaccurate. For example, according to
                       standards identified in testing research, for 1 tax form, the
                       model accurately predicts productive cases 80 percent of the
                       time but misclassifies unproductive cases as productive
                       35 percent of the time. For another tax form, these
                       percentages were 78 percent and 42 percent, respectively.
                       This type of misclassification means that resources may be
                       expended on cases that eventually prove to be uncollectible.
                       There is also the opposite risk that modeling will
                       misclassify productive cases as unproductive, meaning that


                       18
                          Trust fund taxes are the Federal taxes withheld from employee
                       earnings and the employee and employer portions of Social Security and
                       Medicare taxes. The TFRP is asserted against responsible officers and
                       is a method of collecting unpaid trust fund taxes from officers when
                       taxes are not fully collectible from the business that failed to pay them.
                                                                                       Page 11
     The New Risk-Based Collection Initiative Has the Potential to
Increase Revenue and Improve Future Collection Design Enhancements

                       cases that could be collectible will not be worked. Although
                       the standards showed that the relative percentages of
                       misclassifications to accurate predictions were smaller for
                       the latter type of risk, both types exist in every tax form
                       modeled. The percentages evolved as the models were
                       refined, and SB/SE Division management accepted the risks
                       as business policy decisions, reasoning that using any model
                       results which better allocate finite resources is preferable to
                       leaving case assignment practices unchanged. Additionally,
                       as testing continues the models will be adjusted and
                       inaccuracy rates may be reduced.

                       Recommendation

                       2. The Director, Payment Compliance, should ensure
                          the SB/SE Division’s experiences in developing a
                          risk-based collection system are fully shared with the
                          developers of the IRS’ overall F&PC project, including
                          how the limitations necessary during the shorter
                          development period of the RBC initiative can be
                          addressed through the more comprehensive F&PC
                          project. As test results and other data become available,
                          these can be shared with the F&PC team through
                          distribution lists. In the event that the F&PC project
                          becomes significantly delayed, the Director should
                          determine the feasibility of eliminating limitations and
                          enhancing the SB/SE Division’s system, especially with
                          regard to including external data in modeling.
                       Management’s Response: The SB/SE Division will modify
                       existing procedures to include a representative from the
                       F&PC project in the periodic status discussions on SB/SE
                       Division research projects and annual progress reviews.




                                                                              Page 12
             The New Risk-Based Collection Initiative Has the Potential to
        Increase Revenue and Improve Future Collection Design Enhancements

                                                                                      Appendix I


                     Detailed Objectives, Scope, and Methodology

The overall objectives of the review were to determine whether the Risk-Based Collection
(RBC) initiative in the Small Business/Self-Employed (SB/SE) Division was developed using
sound methodology and whether its effectiveness can be adequately measured. To accomplish
our objectives, we:
I.     Determined whether the methodology used in working toward the models was
       appropriate and comprehensive.
       A. Obtained documentation for the preliminary and subsequent models used during the
          development phase of the initiative and other documentation from the Collection
          Strategy (CS) team and the SB/SE Division Research function staff.
       B. Reviewed all documentation to determine the data obtained, data limitations, analyses
          performed, assumptions made, assessment of risks, and logical steps employed in
          developing recommendations.
       C. Determined how the additional dollar collections projected in developing the models
          were derived.
       D. Discussed the rationale behind the assumptions with SB/SE Division management,
          the CS team, and Research function personnel and reviewed documentation showing
          explanations for decisions made.
II.    Determined whether the case-filtering models that were developed incorporated a logical
       and comprehensive set of data and variables to enable dependable identification of
       probable collectible and not collectible cases.
       A. Obtained plans, prospectuses, and any other documentation for the models from the
          Research function and CS team.
       B. Reviewed the documentation to determine what data were used, whether limitations
          or restrictions of data existed, and what variables were identified as possible
          predictors of collectibility.
       C. Discussed with SB/SE Division management, the CS team, and Research function
          personnel the reasons behind decisions made in developing the models that were
          eventually adopted.
III.   Determined whether the RBC initiative’s costs and benefits are properly accounted for,
       measured, and managed.
       A. Reviewed the research plans and prospectuses obtained in Step II.A.
            1. Determined whether all costs of the initiative have been identified.

                                                                                          Page 13
            The New Risk-Based Collection Initiative Has the Potential to
       Increase Revenue and Improve Future Collection Design Enhancements

           2. Determined how the results and success of the RBC initiative are being
              measured and how the measurement systems will differentiate the results of the
              RBC initiative from other Collection function reengineering initiatives.
           3. Compared the measurements against available reports to gauge their accuracy.
           4. Compared the results against the additional collections projected in developing
              the models.
      B. Determined whether a program manager and staff have been selected and how they
         plan to measure and monitor the RBC initiative.
IV.   Determined whether testing of the models is designed to deliver an accurate forecast of
      the models’ effectiveness.
      A. Determined how the selected models are being tested.
      B. Reviewed database documentation and discussed with Collection function
         management to determine whether there are any identifiers or characteristics that
         would distinguish the cases as being filtered.




                                                                                        Page 14
             The New Risk-Based Collection Initiative Has the Potential to
        Increase Revenue and Improve Future Collection Design Enhancements

                                                                                  Appendix II


                           Major Contributors to This Report

Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker Pearson, Director
Preston Benoit, Audit Manager
Richard Hayes, Lead Auditor
Erlinda Foye, Auditor
Janis Zuika, Auditor




                                                                                       Page 15
             The New Risk-Based Collection Initiative Has the Potential to
        Increase Revenue and Improve Future Collection Design Enhancements

                                                                               Appendix III


                                 Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Acting Director, Compliance, Small Business/Self-Employed Division SE:S:C
Acting Deputy Director, Compliance Policy, Small Business/Self-Employed Division
SE:S:C:CP
Director, Payment Compliance, Small Business/Self-Employed Division SE:S:C:CP:PC
Director, Centralized Workload Selection and Delivery, Small Business/Self-Employed Division
SE:S:C:CP:CW
Director, Research, Small Business/Self-Employed Division SE:S:SF:SR:R
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                     Page 16
     The New Risk-Based Collection Initiative Has the Potential to
Increase Revenue and Improve Future Collection Design Enhancements

                                                              Appendix IV


           Management’s Response to the Draft Report




                                                                     Page 17
     The New Risk-Based Collection Initiative Has the Potential to
Increase Revenue and Improve Future Collection Design Enhancements




                                                                     Page 18
     The New Risk-Based Collection Initiative Has the Potential to
Increase Revenue and Improve Future Collection Design Enhancements




                                                                     Page 19
